Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Navajo Nation Department of Resource EnforcementWindow Rock, Arizona

Report No. GR-60-04-011 


September  2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Navajo Nation Department of Resource Enforcement.  The purpose of the grants is to enhance community policing.  The Department of Resource Enforcement was awarded a total of $3,319,786 to hire 15 new full-time sworn officers, and to provide equipment and training for the officers.
The grantee was awarded a cumulative total of two hiring grants and two equipment/training grants in 2002 and in 2003.  We did not include the 2003 grants in our audit because the grantee has not utilized these grant funds.
We reviewed the Department of Resource Enforcement's compliance with six essential grant conditions and found no material weaknesses in the areas we tested related to:  local match requirements, hiring of additional officers, retention of officer positions, and community policing. However, we found weaknesses related to budgeting for local officer positions and reimbursement requests. As a result of the deficiencies identified below, we question $6,272 in grant funds received and recommend an additional $115,632 be put to better use.1  Specifically we found:

The proper grant award amount in TRGP Hiring Grant No. 2002HHWX0010 should be $980,408, which is $115,632 less than the amount awarded by COPS.  The original award was based on salaries and fringe benefits in excess of the actual amounts paid by the grantee.


The Department of Resource Enforcement charged $5,149 in unallowable fringe benefits to TRGP Hiring Grant No. 2002HHWX0010.


The Department of Resource Enforcement charged $1,123 in unallowable training costs to TRGP Equipment/Training Grant No. 2002HEWX0016.

These items are discussed in detail in the Findings and Recommendations section of this report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1978 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.